TN

ome  COQCKLE

; E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga | Briefs

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-285
JERUD BUTLER,
Petitioner,
v.

BOARD OF COUNTY COMMISSIONERS
FOR SAN MIGUEL COUNTY, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
FIRST AMENDMENT SCHOLARS IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4828 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of October, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Le Qudrow- ,
My Commission Expires Nov 24, 2020 %

Notary Public Affiant

 

38680
